Office of Inspector General


           SEMIANNUAL
            REPORT TO
            CONGRESS


For the Period October 1, 2012 through March 31, 2013




                  Report No. 48
               



  “Democracy demands wisdom and vision in its citizens”
National Foundation on the Arts and Humanities Act of 1965
THE OFFICE OF INSPECTOR GENERAL

             serves American taxpayers
       by investigating reports of waste, fraud,
    mismanagement, abuse, integrity violations or
     unethical conduct involving Federal funds.



           To report any suspected activity
  involving NEH programs, operations, or employees

             Contact the OIG Hotline

                 1 (877) 786-7598


                  Mailing Address

   Office of Inspector General — Hotline
  National Endowment for the Humanities
      1100 Pennsylvania Ave. N.W., Room 419
              Washington, DC 20506


                        Fax

                  (202) 606-8329


              Electronic Mail Hotline

                    oig@neh.gov


                OIG Hotline Form

               www.neh.gov/about/oig




    Government employees are protected from reprisal

              Caller can remain anonymous

                Information is confidential
                                                   TABLE OF CONTENTS


         EXECUTIVE SUMMARY………………………..………………………………………..                                                                                      1

         THE NATIONAL ENDOWMENT FOR THE HUMANITIES…… ...................................                                                    2

         THE OFFICE OF INSPECTOR GENERAL........................................................................                            2

         AUDIT AND REVIEW ACTIVITIES .................................................................................                      3

         INVESTIGATIVE ACTIVITIES …………………………………………………………                                                                                    8

         HOTLINE ACTIVITIES …………………………………………………………..............                                                                            9

         OTHER ACTIVITIES ..........................................................................................................       10

         TABLE I - REPORTING REQUIREMENTS…………………………………………… ..                                                                              12

         TABLE II - INSPECTOR GENERAL-ISSUED REPORTS................................................                                       13
         WITH QUESTIONED COSTS

         TABLE III - INSPECTOR GENERAL-ISSUED REPORTS WITH ...................................                                             13
         RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

         GLOSSARY OF AUDIT TERMINOLOGY ........................................................................                            14

         PEER REVIEW RESULTS………………………………………………………………...                                                                                Appendix A




NEH OIG Semiannual Report                                                      i                                                           March 31, 2013
                                        EXECUTIVE SUMMARY

         OIG activities during this reporting period addressed internal agency operations, grantee operations/
         compliance, oversight of the NEH financial statement audit, and oversight of non-Federal audits of NEH
         grantees.

         The OIG completed the fiscal year 2012 evaluation of the NEH’s information security program and prac-
         tices, pursuant to the Federal Information Security Management Act of 2002 (FISMA). We documented
         the results in the Inspector General Section of the NEH 2012 Annual FISMA Report to the Office of Man-
         agement and Budget (OMB), which was submitted via the Cyberscope portal on November 15, 2012. We
         determined that NEH’s security programs and practices were generally consistent with FISMA require-
         ments for fiscal year 2012. We have drafted a report detailing exceptions taken during our evaluation,
         which will be included in the next semi-annual report.

         We performed a limited, independent assessment of Agency managements’ activities pursuant to the Fed-
         eral Managers’ Financial Integrity Act (FMFIA) and concluded that the fiscal year 2012 management
         control evaluation was conducted in accordance with OMB and FMFIA requirements. We also deter-
         mined that the NEH was compliant with the Improper Payments Elimination and Recovery Act of 2010
         concerning fiscal year 2012.

         The OIG engaged the services of Leon Snead & Company, P.C. (IPA) to conduct the annual audit of the
         NEH financial statements for fiscal year ending September 30, 2012, as required by the Accountability of
         Tax Dollars Act of 2002. We monitored the work of the auditors and examined audit working papers and
         the draft report/management letter to ensure compliance with applicable requirements. The NEH received
         an unqualified opinion on the audited financial statements as of and for the years ended September 30,
         2012 and 2011. No material internal control deficiencies or instances of noncompliance with applicable
         laws and regulations were noted by the IPA.

         We concluded our participation in a joint investigative effort concerning a Massachusetts-based public
         broadcasting company. The joint effort was led by the National Science Foundation OIG and involved
         OIG staff from three (3) Federal agencies, (inclusive of the NEH). The U.S. Attorney’s Office entered
         into a civil settlement for $300,173 and the company agreed to implement and adhere to a five-year com-
         pliance enhancement plan to strengthen it’s oversight of Federal funds.

         OIG staff continued participation on the Council of Inspectors General on Integrity and Efficiency
         (CIGIE) Grant Reform Working Group, engaging in discussions related to the grant reforms set forth in
         proposed guidance recently published by OMB in the Federal Register entitled, Proposed OMB Uniform
         Guidance: Cost Principles, Audit, and Administrative Requirements for Federal Awards.




NEH OIG Semiannual Report                                  1                                              March 31, 2013
           THE NATIONAL ENDOWMENT FOR THE HUMANITIES
      In order to promote progress and scholarship in the humanities and the arts in the United States, Congress enacted
      the National Foundation on the Arts and the Humanities Act of 1965. This Act established the National Endow-
      ment for the Humanities (NEH) as an independent grant-making agency of the Federal government to support
      research, education, and public programs in the humanities. According to the Act, "The term 'humanities' in-
      cludes, but is not limited to, the study of the following: language, both modern and classical; linguistics; litera-
      ture; history; jurisprudence; philosophy; archaeology; comparative religion; ethics; the history, criticism, and
      theory of the arts; those aspects of social sciences which have humanistic content and employ humanistic meth-
      ods; and the study and application of the humanities to the human environment with particular attention to reflect-
      ing our diverse heritage, traditions, and history and to the relevance of the humanities to the current conditions of
      national life."

      The NEH is directed by a Chairman, who is appointed by the President and confirmed by the U.S. Senate, for a
      term of four years. Advising the Chairman is the National Council on the Humanities, a board of 26 distinguished
      private citizens who are also appointed by the President and confirmed by the Senate. The National Council
      members serve staggered six-year terms.

      Grants are awarded through four divisions - Research Programs, Education Programs, Preservation and Access,
      and Public Programs -- and three offices - Challenge Grants, Digital Humanities, and Federal/State Partnership.

      The most recently launched initiative, Bridging Cultures, encourages the exploration of ways in which cultures
      from around the globe, as well as the myriad subcultures within America’s borders, have influenced American
      society. This initiative is designed to bridge both space and time to help American citizens gain a deeper under-
      standing of their own varied cultural heritage, as well as the history and culture of other nations.




                             THE OFFICE OF INSPECTOR GENERAL
       The NEH Office of Inspector General (OIG) was established April 9, 1989, in accordance with the Inspector
       General Act Amendment of 1988, (Public Law 100-504). In this legislation, Congress established Offices of
       Inspector General in several departments and in thirty-three agencies, including the NEH. The NEH Inspector
       General (IG) is appointed by the Chairman. The independence of the IG is an important aspect of the Inspector
       General Act. For example, the IG: cannot be prevented from initiating, carrying out, or completing an audit or
       investigation, or from issuing any subpoena; has access to all records of the agency; reports to the National
       Council on the Humanities (through the NEH Chairman), and can only be removed by the National Council on
       the Humanities, which must give Congress 30 days notice of the reasons for the removal; and reports directly to
       Congress.

       The Act states that the OIG is responsible for (1) conducting audits and investigations; (2) reviewing legislation;
       (3) recommending policies to promote efficiency and effectiveness; and (4) preventing and detecting fraud,
       waste, and abuse in the operations of the agency. The IG is also responsible for keeping the Chairman and Con-
       gress fully and currently informed of problems and deficiencies in the agency’s programs and operations.

       The OIG staff currently consists of the Inspector General and two auditors. The Deputy Inspector General posi-
       tion is vacant. The OIG has a Memorandum of Understanding with the United States Treasury Inspector Gen-
       eral for Tax Administration detailing the procedures for the OIG to be provided legal services. Investigations are
       handled by the IG.




NEH OIG Semiannual Report                                         2                                                   March 31, 2013
                                      AUDIT AND REVIEW ACTIVITIES

                                            LIST OF REPORTS ISSUED
       The OIG is responsible for external and internal audits. External efforts include on-site grant audits, limited-scope desk
       audits, accounting system surveys, review of OMB Circular A-133 audit reports, and on-site quality control reviews of
       CPA workpapers. Internal efforts consist of audits, inspections, and reviews/evaluations of NEH administrative,
       programmatic, and financial operations. The OIG is also responsible for monitoring the work of the independent public
       accountant (IPA) engaged to conduct the annual audit of the NEH financial statements as required by the Accountabil-
       ity of Tax Dollars Act of 2002, and examining the IPA’s audit workpapers and reports to ensure compliance with appli-
       cable requirements.

       Following is a list of reports issued by the OIG during this reporting period. The Inspector General Act of 1978, as
       amended, requires us to report on the "Total Dollar Value of Questioned Costs" (including a separate category for the
       “Dollar Value of Unsupported Costs”) and the "Dollar Value of Recommendations that Funds Be Put to Better Use",
       [see Tables II and III].

                                                                                   Report Number                      Date Issued

    INTERNAL AUDITS/REVIEWS/INSPECTIONS

    NEH FY 2012 Review of Internal Controls in Accordance                           OIG-13-01 (IR)                     11/09/2012
     with the Federal Managers’ Financial Integrity Act (FMFIA)

    Final Audit Report                                                                    N/A                          11/09/2012
      NEH Financial Statement Audit ~ FY 2012

    National Endowment for the Humanities’ Compliance with the                      OIG-13-02 (IR)                     03/15/2013
     Improper Payments Elimination and Recovery Act of 2010
     (FY 2012)


    DESK REVIEWS

    Desk Review of the Single Audit Report for Year Ended                           OIG-13-01 (DR)                     12/11/2012
     October 31, 2011 — Missouri Humanities Council

    Desk Review of the Single Audit Report for Year Ended                           OIG-13-02 (DR)                     01/08/2013
     October 31, 2011 — Colorado Humanities

    Desk Review of the Single Audit Report for Year Ended                           OIG-13-03 (DR)                     01/29/2013
     October 31, 2011 — North Carolina Humanities Council

    Desk Review of the Single Audit Report for Year Ended                           OIG-13-04 (DR)                     02/06/2013
     October 31, 2011 — Georgia Humanities Council


    ACCOUNTING SYSTEM SURVEY

    Educopia Institute                                                              OIG-13-01 (TS)                     12/05/2012


    SINGLE AUDIT ACT REVIEWS

    OMB Circular A-133 Reports                                                    —       See Page 6        —




NEH OIG Semiannual Report                                              3                                              March 31, 2013
                                 AUDIT AND REVIEW ACTIVITIES

                                     SUMMARY OF REPORTS ISSUED

                                  INTERNAL AUDITS/REVIEWS/INSPECTIONS

                            NEH FY 2012 Review of Internal Controls in Accordance with
                              the Federal Managers’ Financial Integrity Act (FMFIA)
                                        November 9, 2012; OIG-13-01 (IR)

      The Federal Managers’ Financial Integrity Act (FMFIA), P.L. 97-255, as well as Office of Management and
      Budget (OMB) Circular A-123, Management Accountability and Control, and OMB Circular A-127, Finan-
      cial Management Systems establish specific requirements for management control. FMFIA further requires
      each executive agency head, on the basis of an evaluation conducted in accordance with applicable guide-
      lines, to prepare and submit a signed statement to the President assuring that the agency’s systems of internal
      accounting and administrative control fully comply with the requirements established in FMFIA. Internal
      NEH directives require each Division/Office Director to report on the status of controls against waste, fraud,
      and abuse within their area of responsibility. Managers of NEH’s various financial systems (budget formula-
      tion, accounting, cash management, information management, procurement, property control, grant admin-
      istration, audit, and personnel) are also responsible for (a) ensuring that systems are established, maintained,
      improved, and reviewed; and (b) reporting any exceptions to the NEH Chairman.

      We performed a limited review of the evaluations conducted by NEH Division/Office directors. Based on
      our limited independent assessment of the process, the OIG concluded that the fiscal year 2012 management
      control evaluation was conducted in accordance with OMB and FMFIA requirements. Further, based on the
      results of audits and inspections conducted by the OIG during fiscal year 2012, the OIG concurred with the
      assertion that the NEH had no material weaknesses during the reporting cycle. However, we issued a sepa-
      rate letter of comment to Agency management wherein we made recommendations that, based on our obser-
      vations of the process, we believed would strengthen the thoroughness of the internal control review process
      and would ultimately enhance the integrity of NEH programs and operations.

                                                Final Audit Report
                                  NEH Financial Statement Audit ~ Fiscal Year 2012
                                                 November 9, 2012

      The Office of Inspector General (OIG) engaged Leon Snead & Company, P.C., (IPA) to perform the annual
      audit of the NEH financial statements, as required by the Accountability of Tax Dollars Act of 2002. The
      OIG was responsible for (1) evaluating the qualifications and independence of the auditors; (2) reviewing the
      audit approach and planning; (3) monitoring the work of the auditors; (4) examining audit workpapers and
      draft report/management letter to ensure compliance with Government Auditing Standards, OMB Bulletin
      No. 07-04, Audit Requirements for Federal Financial Statements (as amended), and the Financial Audit Man-
      ual, issued jointly by the Government Accountability Office (GAO) and the President’s Council on Integrity
      and Efficiency (PCIE); and (5) executing other procedures deemed necessary to oversee the contract and the
      audit.

      The IPA expressed an unqualified opinion on the NEH financial statements as of and for the years ended Sep-
      tember 30, 2012 and 2011. The IPA’s testing of internal control did not identify any material weaknesses in
      financial reporting and the results of the IPA’s tests of compliance with certain provisions of laws and regula-
      tions disclosed no instances of noncompliance required to be reported under Government Auditing Standards
      and OMB Bulletin 07-04 (as amended). The IPA noted a control deficiency over financial reporting and its
      operation that was reported to NEH management and those charged with governance in a separate letter dated
      November 8, 2012. There are no prior year unresolved findings.

NEH OIG Semiannual Report                                     4                                            March 31, 2013
                                    AUDIT AND REVIEW ACTIVITIES

                                INTERNAL AUDITS/REVIEWS/INSPECTIONS (con’t.)

                              National Endowment for the Humanities’ Compliance with the
                            Improper Payments Elimination and Recovery Act of 2010 — FY 2012
                                            March 15, 2013; OIG-13-02 (IR)

The Improper Payments Elimination and Recovery Act of 2010 (IPERA) requires the head of each agency to periodi-
cally review and identify all programs and activities it administers that may be susceptible to significant improper
payments, based on guidance provided by the Director of the Office of Management and Budget (OMB). For each
program and activity identified, the agency is required to produce a statistically valid estimate of the improper pay-
ments and include such estimates in the accompanying materials to the annual financial statements of the agency.
The agency is further required under IPERA to prepare a report on actions taken to reduce improper payments for
programs or activities with significant improper payments. With respect to improper payments identified in recovery
audits required by IPERA, the agency is required to report on all actions taken to recover improper payments.

Additional guidance issued by the OMB specifies that each agency’s Inspector General should review improper pay-
ment reporting in the agency’s annual Performance and Accountability Report (PAR) or Annual Financial Report
(AFR), and accompanying materials, to determine whether the agency complied with IPERA.

We determined that the NEH was compliant with IPERA concerning fiscal year 2012. Specifically, the agency pub-
lished a PAR for fiscal year 2012 and posted the report and accompanying material required by OMB on the agency
website. NEH management conducted a risk assessment for improper payments in accordance with the steps outlined
in the revised OMB Circular A-123, Appendix C, Part I. Agency management randomly selected and reviewed a
sample of individual grant payments related to major NEH grant programs during fiscal year 2012, which resulted in
a sampling error rate of zero percent; and properly reported this information in the PAR. Furthermore, nothing came
to the attention of the OIG during fiscal year 2012 that would indicate the agency is susceptible to significant improp-
er payments.

                                                   DESK REVIEWS

OMB Circular A-133 establishes audit requirements for state and local governments, colleges and universities, and
non-profit organizations receiving Federal awards. Covered entities, as defined by the Circular, that expend $500,000
or more a year in Federal awards must obtain an annual organization-wide audit that includes the entity’s financial
statements and compliance with Federal award requirements. The audits are conducted by non-Federal auditors, such
as public accounting firms and state auditors.

During the reporting period, we issued four (4) letters communicating the results of our desk reviews of OMB Circu-
lar A-133 audit reports. The objectives of the desk reviews were to: (1) determine whether the audit reports are
acceptable based on the reporting requirements of OMB Circular A-133; (2) identify any quality issues that may war-
rant follow-up work and/or revisions to the audit report; (3) identify audits for potential Quality Control Reviews
(QCR) of the independent auditors’ workpapers; and (4) identify issues that may require the attention of NEH man-
agement. We used the Guide for Desk Reviews of OMB Circular A-133 Audit Reports, issued by the Council of In-
spectors General on Integrity and Efficiency (CIGIE), to determine if the reports were in conformance with the core
reporting requirements stipulated by OMB Circular A-133.

We determined that three (3) reports were acceptable and one (1) report was technically deficient. A recurring defi-
ciency noted during our desk reviews concerned the lack of disclosure of subrecipient awards in the Schedule of Ex-
penditures of Federal Awards, as required by OMB Circular A-133.310(b)(5).



NEH OIG Semiannual Report                                    5                                            March 31, 2013
                                AUDIT AND REVIEW ACTIVITIES

                                         ACCOUNTING SYSTEM SURVEY

                                                Educopia Institute
                                                    Atlanta, GA
                                          December 5, 2012; OIG-13-01 (TS)

 We completed an accounting system survey of the Educopia Institute, (the “Institute”). The purpose of our survey was
 to obtain information to determine the adequacy of the organization’s accounting system, management controls, and
 policies and procedures designed to administer NEH grant funds.

 We concluded that the Institute’s accounting system, management controls, and formalized policies/procedures in effect
 at the time of our survey did not meet the minimum requirements articulated by the NEH General Terms and Condi-
 tions for Awards, Section 17 — Financial Management Standards, and OMB Circular A-110 (2 CFR Part 215). Specif-
 ically, the Institute had not [a] implemented either a suitable Chart of Accounts or an accounting software package; [b]
 retained a qualified bookkeeper/accountant with the requisite accounting skill set; or [c] established a formalized sys-
 tem to track grant expenditures. Accordingly, we recommended that the NEH designate the Institute as a high-risk enti-
 ty until the issues noted during the accounting system survey are resolved. We also identified several other Federal
 compliance-related issues to be promptly addressed by the Institute.


                                          SINGLE AUDIT ACT REVIEWS

 The OIG receives Single Audit reports directly from NEH grantees. We also receive communications from other Fed-
 eral agencies regarding Single Audit findings, (primarily the Department of Health and Human Services and the Na-
 tional Science Foundation) and we routinely perform queries of the Federal Audit Clearinghouse to determine the re-
 porting of Single Audit findings applicable to NEH awards.

 During the period ended March 31, 2013, we reviewed 44 OMB Circular A-133 audit reports. None of the reports con-
 tained findings that required action by NEH management.




NEH OIG Semiannual Report                                   6                                            March 31, 2013
                                 AUDIT AND REVIEW ACTIVITIES

                                     WORK IN PROGRESS (as of March 31, 2013)


 Inspection ~ Grant Application In-take Process and Panel Development

 For purposes of this inspection, activities of NEH program staff and management from receipt of a grant application to
 presentation of the application for peer review/evaluation represent the grant application in-take process. The objec-
 tives of this inspection are to determine: (1) how applications are screened for eligibility and completeness, and when
 this screening takes place; (2) the scope of the review of draft proposals by NEH program staff and the criteria used
 during the review; (3) the extent of conformity to established guidance pertaining to the review of draft proposals; (4)
 the extent that program officials use agency guidance, NEH Principles and Considerations for Recruiting Panelists,
 when a panel is assembled; and (5) the existence of any division/office-specific guidance on panel recruitment and/or
 composition, and the extent of its use.


 Limited Audit ~ Eastern Michigan University

 The principal objectives of this limited audit are to determine (1) whether grant expenditures were made in accordance
 with applicable provisions of the Documenting Endangered Languages (DEL) Program guidance, NEH’s General
 Terms and Conditions for Awards to Organizations, and the specific terms of the approved grant award; (2) the under-
 lying reasons that led to (a) a delinquent filing of the final financial and performance reports, and (b) a reduction in pro-
 ject scope; and (3) whether proper controls over the use of the Federal funds exist in accordance with minimum stand-
 ards prescribed by OMB Circulars A-110 (2 CFR Part 215) and A-21 (2 CFR Part 220).


 Limited Audit ~ Virgin Islands Humanities Council

 The principal objectives of this limited audit are to determine that (1) grant expenditures were made in accordance with
 applicable provisions of NEH’s General Terms and Conditions for General Support Grants to State Humanities Coun-
 cils, NEH’s Matching Guidelines for General Support Grants to State Humanities Councils, NEH’s General Terms and
 Conditions for Awards, and the specific terms of the approved grant awards; (2) the Council properly tracked and met
 the legislated cost-sharing; and (3) proper controls over the use of the Federal funds exist in accordance with minimum
 standards prescribed in OMB Circulars A-110 (2 CFR Part 215) and A-122 (2 CFR Part 230).




NEH OIG Semiannual Report                                      7                                             March 31, 2013
                                  INVESTIGATIVE ACTIVITIES

                                                   BACKGROUND

   The Inspector General Act of 1978, as amended, provides the authority for the Office of Inspector General to
   investigate possible violations of criminal or civil laws, administrative regulations, and agency policies that im-
   pact the programs and operations of the NEH. In the past, we have obtained assistance from other OIGs, the
   Federal Bureau of Investigation (FBI), the Postal Inspection Service, and other investigative entities.

   Over the years, the OIG has received allegations via the OIG Hotline and did not have sufficient resources to
   initiate an investigation. Therefore, to address this challenge, we continue to inquire of other OIGs concerning
   their willingness and ability to assist us on an “as needed” basis under a reimbursable agreement. A few OIGs
   have responded that they would consider performing work for us on a case-by-case basis, depending on the
   availability of their staff. However, this assistance would be for criminal cases only and we have no guarantee
   that the OIGs would have staff available when needed.

   During this reporting period, no investigations were initiated. There are no matters currently being investigated
   by the NEH OIG.


                            MATTERS REFERRED TO PROSECUTIVE AUTHORITIES

  No matters were referred to the U.S. Department of Justice during this reporting period.




NEH OIG Semiannual Report                                   8                                           March 31, 2013
                                             HOTLINE ACTIVITIES


       We maintain a toll-free Hotline number and an agency e-mail address to provide additional confidentiality
       for individuals bringing matters to the attention of the OIG. We have also developed an interactive, web-
       based template to facilitate the submission of complaints to the OIG. The complaint template is accessible
       via the OIG homepage, (www.neh.gov/about/oig). The toll-free Hotline number, facsimile, web-based
       complaint form, e-mail address, and regular mail are efficient and effective means for NEH employees,
       NEH grantees and contractors, and the general public to submit allegations of fraud, waste, abuse, misman-
       agement, and misconduct concerning NEH programs/operations to the OIG.

       When the OIG receives a complaint or allegation of a criminal or administrative violation, a preliminary
       inquiry is conducted to determine the appropriate action to take. This decision could result in the initiation
       of an investigation or an audit; referral to an NEH office/division or another Federal agency; or no further
       action. When we determine that a matter represents a criminal violation, we will seek assistance from the
       Federal Bureau of Investigations (FBI), another Federal Inspector General, or the United States Department
       of Justice.

       As of the beginning of this reporting period, disposition of matters presented by three (3) hotline contacts
       was open, pending the conclusion of the inquiry phase. Three (3) hotline contacts were received during the
       reporting period, of which one (1) resulted in the initiation of an audit and two (2) were forwarded to other
       Federal agencies. Three (3) hotline contacts remain open as of the end of the reporting period.




                                          SUMMARY OF HOTLINE ACTIVITY



                                          Open at beginning of period              3



                                       Matters brought to the OIG during
                                              the reporting period                 3



                                             Total Hotline Contacts                6


                                     Closed, referred, or no action deemed
                                             necessary during the
                                                reporting period                   3


                                             Open at end of period                 3




NEH OIG Semiannual Report                                   9                                            March 31, 2013
                                            OTHER ACTIVITIES

                                REGULATORY AND LEGISLATIVE REVIEWS

The Inspector General Act of 1978, as amended, requires the Office of the Inspector General to review proposed legis-
lation and regulations. The reviews are to assess whether proposed legislation and/or regulations (1) affect the econo-
my and efficiency of Agency programs and operations; and (2) contain adequate internal controls to prevent and detect
fraud and abuse. During this reporting period, OIG staff continued participation in the efforts of the CIGIE Grant Re-
form Working Group (GRWG). This working group was organized to review the Advanced Notice of Proposed Guid-
ance published in the Federal Register on February 28, 2012 by the Office of Management and Budget (OMB) enti-
tled, Reform of Federal Policies Relating to Grants and Cooperative Agreements; Cost Principles and Administrative
Requirements (Including Single Audit Act), and to develop comments for consideration by the OMB. On February 1,
2013, OMB published proposed guidance in the Federal Register entitled, Proposed OMB Uniform Guidance: Cost
Principles, Audit, and Administrative Requirements for Federal Awards. The GRWG will be submitting comments in
response to the proposed guidance.


                                        WORKING WITH THE AGENCY

OIG staff attended various NEH meetings – panel meetings (where grant applications are reviewed by outside consult-
ants), pre-council meetings (where program staff discuss panel review results with the Chairman and his immediate
staff), meetings of the National Council on the Humanities, and monthly senior staff meetings. OIG staff may occa-
sionally contribute to the discussions, but the OIG does not participate in policymaking.

The IG delivered a presentation about the mission, responsibilities, and activities of the NEH Office of Inspector Gen-
eral and the OIG Hotline during meetings held at the NEH involving project directors in receipt of awards through the
Division of Education (NEH Summer Seminars and Institutes for 2013, and NEH Humanities Initiatives at Historically
Black Colleges and Universities, Hispanic-Serving Institutions, and Tribal Colleges and Universities). The meetings
were held in October 2012 and February 2013, respectively.

The IG also participated with the Chairman, program staff, and grant management staff in the 2012 National Humani-
ties Conference sponsored by the Federation of State Humanities Councils. The IG moderated a conference session
wherein accountability and compliance matters applicable to state council organizations were discussed. The session
was attended by executive directors and council personnel charged with fiscal responsibilities.


                        PARTICIPATION ON THE COUNCIL OF INSPECTORS GENERAL
                                    ON INTEGRITY AND EFFICIENCY

The Inspector General Reform Act of 2008 (Public Law 110-409), amended the Inspector General Act of 1978 and
established the Council of Inspectors General on Integrity and Efficiency (CIGIE). The CIGIE is comprised of all
Inspectors General whose offices are established by the Inspector General Act of 1978 (and subsequent amendments)
— those that are Presidentially-appointed/Senate-confirmed and those that are appointed by agency heads (Designated
Federal Entities). During the reporting period ended March 31, 2013, the IG regularly attended monthly CIGIE meet-
ings (and provided responses to various CIGIE inquiries), bi-monthly meetings of the Federal Audit Executive Council
(FAEC), and bi-monthly meetings of a recently established sub-group of the CIGIE representing the “Smaller OIGs”.
The Inspector General and a staff auditor participated in the Single Audit Roundtable held in October 2012.




NEH OIG Semiannual Report                                 10                                           March 31, 2013
                                              OTHER ACTIVITIES

                                      INTRA-GOVERNMENTAL ACTIVITY

  Collaboration with the National Science Foundation ~ Office of Inspector General

  The Inspector General participated in a joint investigative effort concerning a major NEH media grantee. The joint
  effort involved three (3) Federal agencies, (inclusive of the NEH). The National Science Foundation ~ OIG led
  the investigation. The investigation found that the Massachusetts-based public broadcasting company could not
  demonstrate that project costs charged to Federal grants received from the three agencies were reasonable, allowa-
  ble, and allocable. The company submitted inaccurate financial reports over three (3) years to the Federal agen-
  cies; used Federal funds to pay for impermissible expenses; and maintained an accounting system that was inade-
  quate for tracking grant expenditures.

  The U.S. Attorney’s Office entered into a civil settlement whereby, without admitting liability, the company repaid
  $300,173 (of which $25,215 was allocated to the NEH), and agreed to implement and adhere to a five-year com-
  pliance enhancement plan to strengthen its oversight of Federal funds.

                                                   OIG INTERNET

  OIG audit/review reports and semiannual reports are posted on the internet. The reports are accessible through the
  OIG homepage on the NEH website (www.neh.gov/about/oig).

  To promote NEH staff awareness and understanding of the OIG mission and responsibilities, we provide hyper-
  links to several other Federal agencies such as the Office of Management and Budget, the Government Accounta-
  bility Office, the Office of Government Ethics, and the IGNET website.

                              “AUDIT READINESS” AWARENESS CAMPAIGN

The OIG executes an “Audit Readiness” awareness campaign via e-mail. The objective of the campaign is to dis-
seminate guidance that would assist recipients of NEH grants in their efforts to preclude unfavorable outcomes
should the organizations’ NEH grants be selected for audit. The e-mail communication emphasizes the value of each
recipient’s understanding of the specific NEH grant terms and conditions and the administrative requirements appli-
cable to all Federal awards. We remind recipients that they are stewards of Federal funds and therefore must comply
with the OMB circulars and the terms and conditions of the NEH grant awards. Highlighted in the communications
are specific areas wherein problems are commonly found during audits of NEH grantees and hyperlinks to appropri-
ate guidance materials and resources. We also discuss the importance of effective internal controls. The e-mail
communications are sent directly to project directors and grant administrators identified for all non-profit awardees.

During the reporting period ended March 31, 2013, e-mail communications were sent as noted below. We have
reasonable assurance that all of the awardees received a copy of the communication.


                 NEH Office or Division          Number of Awardees             Total Value of Awards
            Office of Challenge Grants                     15                          $6,109,000
            Division of Preservation and
             Access                                        10                          $2,135,000
             Division of Education Programs                 5                          $ 944,375
             Division of Public Programs                     2                         $ 312,270



NEH OIG Semiannual Report                                  11                                           March 31, 2013
                                                       TABLE I

                                  REPORTING REQUIREMENTS


       The Inspector General Act of 1978, as amended (Public Law 100-504), specifies reporting requirements for
       semiannual reports. The requirements are listed and cross-referenced to the applicable pages in this report.


       IG Act Reference                           Reporting Requirements                                  Page

       Section 4(a)(2)            Regulatory and Legislative Reviews………………………………                           10

       Section 5(a)(1)            Significant Problems, Abuses, and Deficiencies………………..…                   *

       Section 5(a)(2)            Recommendations for Corrective Action …………………………                          *

       Section 5(a)(3)            Prior Significant Recommendations Unimplemented…………..…                    *

       Section 5(a)(4)            Matters Referred to Prosecutive Authorities………………………                      8

       Section 5(a)(5)            Instances Where Information Was Refused or Not Provided……..              *

       Section 5(a)(6)            List of Reports Issued………..…………………………………….                                3

       Section 5(a)(7)            Summary of Reports Issued.……………………………………….                               4-6

       Section 5(a)(8)            Audit Reports - Questioned Costs….………………………………                           13

       Section 5(a)(9)            Audit Report - Funds To Be Put to Better Use.…….……………...                 13

       Section 5(a)(10)           Prior Audit Reports Unresolved……………………………………                              *

       Section 5(a)(11)           Significant Revised Management Decisions……………………….                        *

       Section 5(a)(12)           Significant Management Decisions with which OIG Disagreed…..              *

       Section 5(a)(14-16)        Peer Review Results………………………………………………. Appendix A


        * None this period




NEH OIG Semiannual Report                                        12                                             March 31, 2013
                                                      TABLE II
                                         INSPECTOR GENERAL-ISSUED REPORTS
                                               WITH QUESTIONED COSTS


                                                                               Number     Questioned   Unsupported
                                                                             Of Reports    Cost          Cost
         A. For which no management decision has been made by the                  -0-     $ -0-          $-0-
            commencement of the reporting period.

         B. Which were issued during the reporting period.                         -0-     $ -0-          $-0-

                                     Subtotals (A+B)                               -0-     $ -0-          $-0-

         C. For which a management decision was made during
            the reporting period.

                  i.    Dollar value of disallowed costs.                          -0-     $ -0-          $ -0-

                  ii.   Dollar value of costs not disallowed                       -0-     $ -0-          $ -0-

                  iii. Dollar value of costs not disallowed based on the           -0-     $ -0-          $ -0-
                       “Value of Services Received.”


         D. For which no management decision has been made by the                  -0-     $ -0-          $ -0-
            end of the reporting period.

         E. Reports for which no management decision was made within               -0-     $ -0-          $ -0-
            six months of issuance.




                                                    TABLE III
                                        INSPECTOR GENERAL-ISSUED REPORTS
                               WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                                                                                  Number       Dollar
                                                                                                  Of Reports   Value


         A. For which no management decision has been made by the commencement                         -0-     $-0-
            of the reporting period.

         B. Which were issued during the reporting period.                                             -0-     $-0-

         C. For which a management decision was made during the reporting period.                      -0-     $-0-

                  i. Dollar value of recommendations that were agreed to by management.                        $-0-

                  ii. Dollar value of recommendations that were not agreed to by                               $-0-
                      management.

         D. For which no management decision was made by the end of the reporting period.              -0-     $-0-




NEH OIG Semiannual Report                                      13                                         March 31, 2013
                            GLOSSARY OF AUDIT TERMINOLOGY


        Questioned Cost - A cost that is questioned by the OIG because of an alleged violation of a provision
        of a law, regulation, contract, grant, cooperative agreement, or other agreement or document
        governing the expenditure of funds; because such cost is not supported by adequate documentation; or
        because the expenditure of funds for the intended purpose is unnecessary or unreasonable.

        Unsupported Cost - A cost that is questioned because of the lack of adequate documentation at the
        time of the audit.

        Disallowed Cost - A questioned cost that management, in a management decision, has sustained or
        agreed should not be charged to the government.

        Funds Be Put To Better Use - Funds, which the OIG has disclosed in an audit report, that could be
        used more efficiently by reducing outlays, de-obligating program or operational funds, avoiding
        unnecessary expenditures, or taking other efficiency measures.

        Management Decision - The evaluation by management of the audit findings and recommendations
        and the issuance of a final decision by management concerning its response to such findings and
        recommendations.

        Final Action - The completion of all management actions, as described in a management decision,
        with respect to audit findings and recommendations. When management concludes no action is
        necessary, final action occurs when a management decision is made.

        Source: Excerpt from Section 106(d) of the Inspector General Act Amendments of 1988 (P.L. 100-
        504).




NEH OIG Semiannual Report                                  14                                       March 31, 2013
                                                                                        APPENDIX A

                                               PEER REVIEW RESULTS


       The following information is provided pursuant to the requirements of Section 989C of Public Law 111-203
       (July 21, 2010), the Dodd-Frank Wall Street Reform and Consumer Protection Act, amending the Inspector
       General Act of 1978 (the IG Act), 5 U.S.C. App. This appendix complies with Section 5(a)(14 - 16) of the IG
       Act of 1978, as amended.


       (14)(A) Peer Review of the Audit Function. On December 9, 2010, the U.S. Consumer Product Safety
       Commission (CPSC) issued a System Review Report on the audit organization of the NEH OIG in effect for
       the year ended March 31, 2010. The CPSC found that the system of quality control for the audit organization
       of the NEH OIG had been suitably designed and complied with to provide reasonable assurance of performing
       and reporting in conformity with applicable professional standards in all material respects. Federal audit
       organizations can receive a rating of pass, pass with deficiencies, or fail. The NEH OIG received a peer review
       rating of pass.

       A peer review of the NEH OIG is scheduled to take place during the semi-annual reporting period ending
       September 30, 2013.

       (15) Outstanding Recommendations from any Peer Review of the NEH OIG. There are no outstanding
       recommendations from any peer review of the NEH OIG conducted by another Office of Inspector General
       that have not been fully implemented.

       (16) Peer Review Conducted by the NEH OIG. On January 27, 2011, the NEH OIG issued a System
       Review Report on the United States Capitol Police (USCP) Office of Inspector General audit organization in
       effect for the year ended September 30, 2010. We found that the system of quality control for the audit organi-
       zation of the USCP OIG had been suitably designed and complied with to provide USCP OIG with reasonable
       assurance of performing and reporting in conformity with applicable professional standards in all material
       respects. The USCP OIG received a peer review rating of pass.




NEH OIG Semiannual Report                                                                               March 31, 2013
